VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                          Follow-up 

                                                                     Audit of 100 Percent 

                                                                     Disability Evaluations 





                                                                                        June 6, 2014
                                                                                        14-01686-185
            ACRONYMS AND ABBREVIATIONS 


OIG         Office of Inspector General
VA          Veterans Affairs
VBA         Veterans Benefits Administration




      To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Follow-up Audit of
                  VBA’s 100 Percent Disability
                  Evaluations

Why We Did This Audit                            these claims and project VBA, without action,
                                                 could continue making unsupported payments
In January 2011, we reported in the Audit of     to veterans totaling about $371 million over
100 Percent Disability Evaluations, Veterans     the next 5 years. We identified a $456 million
Benefits Administration (VBA) was not            ($85 million plus $371 million) total impact to
correctly evaluating and monitoring 100          the government. We reduced this projection
percent disability evaluations. We projected     to $222.6 million because our 2011 projection
that VA Regional Office staff did not            and report included all benefits before
correctly process 100 percent disability         December 31, 2015.
evaluations for about 27,500 (15 percent) of
181,000 veterans. The 27,500 disability          We determined that almost 1,500 claims
evaluations included over 9,900 veterans         folders with temporary 100 percent disability
with temporary 100 percent disability            evaluations were located at the VA Records
evaluations without a future exam date           Management Center. Previously VBA told us
entered in their electronic record.         We   they implemented our recommendation to
reported without improved management of          transfer claims folders with temporary
these claims, VBA could overpay veterans a       100 percent disability evaluations back to the
projected $1.1 billion in the next 5 years.      regional office.

Our objective of this audit was to determine     What We Recommended
whether VBA took sufficient action to
implement recommendation 7 from our 2011         The Under Secretary for Benefits ensure
report, “Conduct a review of all temporary       regional office staff take appropriate action on
100 percent disability evaluations and ensure    temporary 100 percent evaluations within 180
each evaluation has a future exam date           days and transfer from the Records
entered in the veterans’ electronic records.”    Management Center all claims folders with
                                                 temporary 100 percent evaluations to the
What We Found                                    regional office of jurisdiction.

VBA reviewed all temporary 100 percent           Agency Comments
disability evaluations but did not take
sufficient action to ensure each evaluation      The Under Secretary for Benefits concurred
had a future exam date. As of January 2014,      with our recommendations and provided plans
VBA identified over 8,300 temporary              for corrective actions. We consider the
100 percent disability evaluations for           actions acceptable and will follow up on their
regional    offices    to   review,  which       implementation.
7,400 (88 percent) had not been reviewed.
We estimate 3,100 (42 percent) of these
veterans received almost $85 million in
improper       benefit    payments    since
January 2012 because these claims lacked                     LINDA A. HALLIDAY
adequate medical evidence. We remain                     Assistant Inspector General
concerned of VBA’s financial stewardship of               for Audits and Evaluations
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding           VBA Continues to Make Unsupported Payments to Veterans ................................2
 

                      Recommendations ....................................................................................................5
 

Appendix A  Background ............................................................................................................. 9
 

Appendix B  Scope and Methodology ....................................................................................... 10
 

Appendix C  Statistical Sampling Methodology ........................................................................ 12
 

Appendix D  Potential Monetary Benefits in Accordance With Inspector General Act 

            Amendments ......................................................................................................... 17
 

Appendix E  Under Secretary for Benefits Comments .............................................................. 18
 

Appendix F            Office of Inspector General Contact and Staff Acknowledgments ...................... 21
 

Appendix G  Report Distribution ............................................................................................... 22
 
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations



                    INTRODUCTION
Objective           Our audit was to determine whether the Veterans Benefits Administration
                    (VBA) took sufficient action to implement recommendation 7 from our
                    2011 report, which was “Conduct a review of all temporary 100 percent
                    disability evaluations and ensure each evaluation has a future exam date
                    entered in the veterans’ electronic records.”

Prior Audit         The Office of Inspector General (OIG) issued Audit of 100 Percent Disability
                    Evaluations (Report No. 09-03359-71, January 24, 2011), which reported
                    that VBA was not correctly evaluating and monitoring 100 percent disability
                    evaluations. At that time, we projected that VA Regional Office staff did not
                    correctly process 100 percent disability evaluations for about
                    27,500 (15 percent) of 181,000 veterans who had at least one
                    service-connected condition rated 100 percent disabling, as of
                    September 2009.       The 27,500 disability evaluations included over
                    9,900 veterans with temporary 100 percent disability evaluations without a
                    future exam date entered in the electronic record.

                    We also projected that from January 1993 to December 2010, VBA paid
                    veterans a net amount of about $943 million in benefits without adequate
                    medical evidence. In addition, we reported that if VBA did not take timely
                    corrective action, it would overpay veterans a projected $1.1 billion in
                    benefits from January 2011 to December 2015. VBA concurred with all
                    seven recommendations to increase oversight to correctly evaluate and
                    monitor 100 percent disability evaluations.

OIG General         Since January 2011, the OIG testified on seven separate occasions to various
Testimony           U.S. Senate and U.S. House of Representative committees that VBA efforts
                    have not been aggressive enough to address the audit’s recommendation.
                    We testified in December 2013, that since FY 2009, 71 of our Benefit
                    Inspections continued to identify regional office staff incorrectly processed
                    temporary 100 percent disability evaluations. This review of a small sample
                    of individual cases examined during each Benefit Inspection resulted in our
                    identification of veterans receiving over $19 million in actual overpayments.

Other               The following appendixes provide additional information:
Information
                       Appendix A provides pertinent background information.
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides statistical sampling information.




VA Office of Inspector General                                                                     1
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations



                    RESULTS AND RECOMMENDATIONS
Finding 	           VBA Continues to Make Unsupported Payments to
                    Veterans

                    VBA has not taken sufficient action to ensure each temporary 100 percent
                    disability evaluation had a future exam date entered in the veterans’
                    electronic records. As of January 8, 2014, VBA’s data showed they had
                    identified over 8,300 temporary 100 percent disability evaluations for
                    regional offices to review. We estimated that regional office staff had not
                    reviewed or taken action on almost 7,400 (88 percent) of them, including
                    over 4,100 that VBA’s Office of Field Operations had notified regional
                    offices to review more than a year earlier.

                    We also projected the claims folders for almost 1,500 temporary 100 percent
                    disability evaluations were located at the VA Records Management Center.
                    Because these disability evaluations are temporary, when physicians conduct
                    medical exams, they may need to review private medical evidence
                    maintained in the claims folders to determine if temporary medical
                    conditions improved after medical treatments. Therefore, these claims
                    folders should be located at the regional office of jurisdiction.

                    We previously closed two recommendations that VBA:

                    	 Issue guidance to ensure VA Regional Office staff does not relocate
                       claims folders with temporary 100 percent disability evaluations to the
                       VA Records Management Center.
                    	 Identify all claims folders with temporary 100 percent disability
                       evaluations currently located at the VA Records Management Center,
                       and review the status of each evaluation to determine if a transfer to the
                       regional office of jurisdiction is required to conduct an exam or revise
                       the evaluation.

                    However, VBA has not established an adequate plan to ensure regional
                    offices (1) conduct a timely review of their temporary 100 percent disability
                    evaluations (2) establish a future exam date in the veterans’ electronic record
                    for each temporary 100 percent disability evaluation and (3) identify and
                    relocate all claims folders with temporary 100 percent disability evaluations
                    back to the regional office of jurisdiction. We estimate that VBA paid over
                    3,100 (42 percent) of the approximately 7,400 veterans almost $85 million in
                    benefit payments without adequate medical evidence. Without management
                    attention, VBA could overpay these veterans a projected $371 million over
                    the next 5 years.




VA Office of Inspector General                                                                     2
                                           Follow-up Audit of VBA’s 100 Percent Disability Evaluations


TRAP Report         VBA’s TRAP report meets the intent of the first part of the
                    recommendation—to conduct a review of all temporary 100 percent
                    disability evaluations. The TRAP report adequately identifies those
                    temporary 100 percent disability evaluations that do not include a future
                    exam date in VBA’s electronic records. In August 2012, VBA established
                    the biweekly TRAP report to identify all veterans with a temporary
                    100 percent disability evaluation that do not have a routine future exam,
                    make a determination of permanent and total disability, or establish due
                    process for a reduction when justification for a 100 percent evaluation no
                    longer exists. When none of these controls are in place, VBA flags the
                    record for regional offices to review.

                    VBA provided the OIG with 13 TRAP reports that covered the period
                    April 1 to September 19, 2013, and requested closure of recommendation 7.
                    We reviewed a sample of the veterans listed on the TRAP reports and found
                    veterans’ claims that should not have been on the report. This is because
                    regional office staff had already initiated work actions to reduce the veterans’
                    temporary 100 percent disability evaluation. Additionally, we identified
                    veterans with temporary 100 percent disability evaluations that should have
                    been listed on the TRAP report. For example, we identified one veteran with
                    a temporary 100 percent disability evaluation effective March 13, 2008. The
                    veteran’s medical records showed the veteran was due for a follow-up exam
                    in May 2010. However, the exam was never scheduled or completed.

                    At our request, VBA reviewed our findings and found coding errors that
                    prevented the TRAP report from identifying these veterans. VBA informed
                    us they had fixed those coding errors. For example, the earlier coding
                    removed any veteran with a future reduction in their benefits even if that
                    reduction was a dependency change. It also did not recognize active
                    evaluations VBA was in the process of reducing. We reviewed a second
                    sample of veterans after VBA reported they fixed the coding errors and did
                    not identify any additional veterans incorrectly identified or omitted.

Regional            VBA has not taken sufficient action to ensure each temporary 100 percent
Office Action       disability evaluation has a future exam date entered in veterans’ electronic
                    records. As of January 8, 2014, VBA had identified over 8,300 temporary
                    100 percent disability evaluations for regional offices to review. Of the
                    8,300, we estimated that regional office staff had not reviewed or taken
                    action on almost 7,400 (88 percent). This included over 4,100 that VBA’s
                    Office of Field Operations had notified regional offices to review than a year
                    earlier.

                    We reviewed available electronic sources to determine whether regional
                    office staff initiated action. For those temporary 100 percent disability
                    evaluations where regional office staff had not taken action, we identified the
                    amount of benefits paid to the veteran since the date Office of Field



VA Office of Inspector General                                                                      3
                                           Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    Operations notified the regional office to take action. The earliest date in our
                    sample was January 2012.

                    During our 2011 audit, we determined that 42 percent of all temporary
                    100 percent disability evaluations without a future medical exam date
                    entered in VA electronic records resulted in veterans receiving benefits that
                    lacked adequate medical evidence. After regional office staff took corrective
                    action, VBA reduced the veterans’ benefits by an average of $1,985 per
                    month. VBA has taken action to reduce the numbers of veterans who
                    currently have temporary 100 percent disability evaluations without a future
                    exam date from a little over 9,900 in our 2011 report to 7,400 as of January
                    2014. However, as we reported in 2011, the primary control to ensure only
                    entitled veterans receive the temporary 100 percent disability evaluation is
                    the existence of a future exam date in veterans’ electronic records. For this
                    reason, the estimated 42 percent error rate is still a reasonable basis to
                    determine the current monetary impact from VBA not taking action on
                    recommendation 7.

                    Based on the 2011 audit’s 42 percent rate and subsequent average reduction
                    of $1,985 per month, we estimate that since January 2012 over 3,100 of the
                    nearly 7,400 veterans received almost $85 million in benefit payments
                    without adequate medical evidence. VBA rarely attempts to recover benefits
                    paid in error because current regulations do not allow retroactive reductions.
                    Once the temporary 100 percent disability evaluation has been in place for
                    20 years, VBA cannot reduce the evaluation unless the veteran committed
                    fraud in obtaining the benefits. Without management attention to establish
                    processes to mitigate these improper payments, VBA could overpay these
                    veterans a projected $371 million over the next 5 years. Appendix C
                    provides details on our projections.

Claims              We also identified the claims folders for a projected 1,500 veterans with
Folders at the      temporary 100 percent disability evaluations where the electronic records
VA Records
Management
                    showed the folders were located at the VA Records Management Center.
Center              VA criteria state regional offices can relocate claims folder to the Records
                    Management Center after there is no claim activity for at least 12 months.
                    Veterans with a temporary 100 percent disability evaluation require periodic
                    medical exams, which can be as much as 5 years in the future. Therefore,
                    regional office staff should treat these claims folders as active. Physicians
                    may need to review private medical evidence maintained in the claims
                    folders when conducting these medical exams to determine if temporary
                    medical conditions improved after medical treatments.

                    When we completed our 2011 audit, we recommended the then Acting
                    Under Secretary for Benefits “Issue guidance to ensure VA Regional Office
                    staff does not relocate claims folders with temporary 100 percent disability
                    evaluations to the VA Records Management Center” and “Identify all claims
                    folders with temporary 100 percent disability evaluations currently located


VA Office of Inspector General                                                                      4
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    at the VA Records Management Center, and review the status of each
                    evaluation to determine if a transfer to the VA Regional Office of jurisdiction
                    is required to conduct an exam or revise the evaluation.” Although we
                    closed these recommendations based on VBA’s earlier response that they
                    corrected this problem, this follow up review supports the problem still exists
                    and VBA needs to address this issue.

Conclusion          We are not closing recommendation 7 from our 2011 report at this time.
                    VBA’s corrective actions have not fully addressed our concern that the
                    financial stewardship of these claims remains weak and vulnerable to
                    processing benefit payments in excess of veterans’ eligibility where medical
                    conditions may be improved. To correct the systemic problem that leads to
                    veterans receiving long-term payments to which they may not be entitled,
                    VBA needs to take action to ensure each claim for temporary 100 percent
                    disability evaluation has a future exam date entered in the veterans’
                    electronic record and resulting actions are processed timely. VBA rarely
                    attempts to recover any monies paid to the veteran in error and does not have
                    processes in place to mitigate improper payments. Further, once the
                    temporary 100 percent disability evaluation has been in place for 20 years,
                    VBA cannot reduce the evaluation unless the veteran committed fraud in
                    obtaining the benefits.

                    Recommendations

                    1.	 We recommended the Under Secretary for Benefits ensure regional office
                        staff take the appropriate action to review and process the records of all
                        veterans with a temporary 100 percent disability evaluation within
                        180 days of the veteran’s inclusion on the TRAP report or the veteran’s
                        scheduled exam.

                    2.	 We recommended the Under Secretary for Benefits ensure regional
                        offices transfer from the Records Management Center all claims folders
                        with temporary 100 percent disability evaluations to the regional office
                        of jurisdiction.

Management          The Under Secretary for Benefits concurred with our recommendations. The
Comments            Under Secretary stated that VBA has implemented an aggressive plan to take
and OIG
Response
                    appropriate action on all temporary 100 percent disability evaluations within
                    180 days of inclusion on the TRAP report or maturation of VBA’s future
                    examination indicator that is established when VBA awards the veteran a
                    temporary 100 percent evaluation. The Under Secretary also stated that
                    paper claims files located at the VA Records Management Center that are
                    needed in connection with a temporary 100 percent review are being sent to
                    VBA’s scanning vendor, where they are uploaded for electronic access by
                    the regional office. As the future examination indicator matures, the
                    electronic folder will be available for the regional office to take appropriate



VA Office of Inspector General                                                                     5
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    follow-up action. The following is a summary of the Under Secretary’s
                    additional comments and our responses.

Claims Folders      Management Comments: The OIG cites the location of claims folders at
at the VA           the Records Management Center as a factor that prevents VBA from
Records
Management
                    identifying claims where a veteran’s medical condition may have improved.
Center              However, this is a misunderstanding of VBA’s current claims processing
                    business model. The new transformation business model utilizes a paperless
                    claims processing environment. The Records Management Center does not
                    need to send the paper claims folder to the regional office having jurisdiction
                    of the Veteran’s claim. Paper claims files located at the Records
                    Management Center that are needed in connection with a temporary
                    100 percent evaluation review are sent to VBA’s scanning vendor, where
                    they are uploaded for electronic access by the regional office.

                    Based on OIG’s review of 106 veterans’ records, OIG determined that 16 of
                    these records were located at the Records Management Center. OIG then
                    used this sample to estimate that 1,500 claims requiring future exams were
                    located at the Records Management Center. However, that estimate is
                    inaccurate, as only 182 claims files requiring future exam reviews were
                    actually located at the Records Management Center as of January 31, 2014.
                    VBA has issued guidance to expedite shipment of these files to the scanning
                    vendor.

                    OIG Response: VBA’s planned corrective action of shipping those files
                    with temporary evaluations to the scanning vendor is acceptable and
                    responsive to the intent of the recommendation. Our intent is to ensure
                    physicians have access to any medical evidence maintained in the claims
                    folders, paper or scanned, when conducting medical exams to determine if
                    temporary medical conditions improved after medical treatments.

                    VBA asserts that our estimate of 1,500 claims requiring future exams located
                    at the Records Management Center is inaccurate. We queried VBA’s
                    COVERS (Control of Veterans Records System) database and determined
                    that the claims folders for 179 veterans with temporary 100 percent disability
                    evaluations were located at the VA Records Management Center. However,
                    we also identified an additional 1,110 veterans with temporary 100 percent
                    disability evaluations where the COVERS location was blank. As a result,
                    VBA lacks assurance it has correctly identified all files at the RMC requiring
                    veterans’ future examination reviews. VBA should ascertain the location of
                    those claims folders to ensure they are not located at the Records
                    Management Center, and expedite the scanning of those files.

OIG’s Estimate      Management Comments: VBA disagrees with the OIG’s estimate that
of Improper         3,100 (42 percent) of the veterans listed on the TRAP report are receiving
Payments            improper payments, and therefore believes the OIG’s projection of improper
                    payments to be significantly overstated. The OIG states in Appendix C that


VA Office of Inspector General                                                                     6
                                           Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    it based the 42 percent estimate on the small sample of cases without future
                    examination dates reviewed by regional office staff during the OIG’s
                    2011 site visits. To assess the applicability of this estimate to the 7,400 cases
                    on the current TRAP report without a future examination date, VBA looked
                    at the universe of 81,092 veterans who were in the population of veterans
                    with 100 percent disability evaluations that were the subject of the OIG’s
                    2011 review, and applied the TRAP criteria to their 2010 status. VBA
                    identified 4,082 claims that met the TRAP criteria in 2010 for no future diary
                    at that time and therefore at risk for improper payments. VBA then reviewed
                    their current status and determined that only 16 percent of these veterans’
                    awards have been reduced, terminated, or suspended. The remaining
                    veterans have either had their 100 percent disability evaluation converted to
                    permanent status or have since died; or they have had their temporary
                    evaluations continued, with the required controls in place to review the
                    claims in the future and schedule examinations as needed.

                    OIG Response: VBA’s concern that we used a small sample in 2011 is
                    unfounded. At that time, we reviewed a sample of five strata of permanent
                    evaluations grouped by diagnostic series as well as the remaining stratum of
                    temporary evaluations. The total sample size for the temporary evaluation
                    strata was 144 cases out of a population of 9,919 cases. The sample was
                    based on a 90 percent confidence level with a precision of 7.3 percent—an
                    acceptable precision by most statistical standards. In addition, 61 cases met
                    these criteria achieving a coefficient of variance for this estimate of only
                    12 percent which is very accurate. We explain all the details of our sampling
                    design in Appendix C of our original report.

                    VBA also stated they reviewed the universe of 81,092 veterans who were in
                    the population of veterans with 100 percent. However, that was not our
                    universe.     We based our 2011 report on a population of about
                    239,000 veterans with active compensation claims with at least one
                    diagnostic code rated 100 percent disabling as of September 2009. Of the
                    almost 239,000 veterans, we did not review about 58,000 veterans with
                    medical conditions that had little or no likelihood of improvement (such as
                    double amputees).       This reduced our population to approximately
                    181,000 veterans who may require periodic evaluations.        At that time,
                    VBA’s electronic record system did not clearly distinguish veterans with
                    permanent and temporary ratings therefore we classified veterans with
                    ratings that did not have a future medical exam date or paragraph 28, 29, or
                    30 designation in VBA’s electronic record system as permanent ratings. We
                    classified the remaining 37,000 (181,000 – 144,000) veterans with a future
                    medical exam date or paragraph 28, 29, or 30 designation as temporary.

                    This follow-up audit focused only on those temporary evaluations. We
                    provided an explanation of this in Appendix C of the current report under the
                    heading “Prior Audit Results.” During our prior audit, regional office staff
                    determined that the medical evidence no longer supported a temporary


VA Office of Inspector General                                                                      7
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    100 percent evaluation for a projected 4,202 (42 percent) of the
                    9,919 veterans and reduced their evaluations. The 9,919 number was
                    projected by OIG’s statistician based on the number of the 37,000 projected
                    veterans who did not have a future exam date entered into their electronic
                    record. Based on the prior audit sample errors, we projected that evaluations
                    were reduced for 4,202 (42 percent) of the 9,919 veterans an average of
                    about $1,985 per month. We applied this 42 percent error rate to our current
                    audit universe and estimated the monetary effect. We believe the 2011 audit
                    results is a reasonable basis and offers a consistent and conservative
                    methodology for determining the current monetary impact from VBA not
                    taking action on our prior recommendation.

                    We will monitor implementation of these actions and will close the
                    recommendations when we receive sufficient evidence demonstrating VBA
                    has addressed the identified issues. See Appendix E for the full text of the
                    Under Secretary’s comments.




VA Office of Inspector General                                                                     8
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix A          Background

Prior Audit         The OIG conducted the Audit of 100 Percent Disability Evaluations to
                    determine whether regional office staff correctly assigned 100 percent
                    disability evaluations as either permanent or temporary and effectively
                    monitored and adjusted temporary 100 percent disability evaluations. We
                    reported that VBA was not correctly monitoring these evaluations. We
                    projected that regional office staff did not correctly process evaluations for
                    about 27,500 (15 percent) of 181,000 veterans who had at least one
                    service-connected condition rated 100 percent disabling as of
                    September 2009.      The 27,500 disability evaluations included over
                    9,900 veterans with temporary 100 percent disability evaluations without a
                    future exam date entered in the electronic record. We also projected that
                    from January 1993 to December 2010, VBA paid veterans a net amount of
                    about $943 million in benefits without adequate medical evidence.
                    Additionally, we reported that without timely corrective action, VBA would
                    overpay veterans a projected $1.1 billion in benefits from January 2011 to
                    December 2015.

                    As part of the 2011 audit, we recommended the then Acting Under Secretary
                    for Benefits conduct a review of all temporary 100 percent disability
                    evaluations and ensure each evaluation had a future exam date entered in the
                    veteran’s electronic record. VBA concurred with this recommendation and
                    provided a plan that they would focus their efforts on the frequency of the
                    diagnostic code used for the 100 percent evaluation. They planned to start
                    with the three diagnostic codes used most frequently:

                    	 7715: Non-Hodgkin’s Lymphoma
                    	 7528: Malignant Neoplasms of the Genitourinary System (most
                       frequently diagnosed as Prostate Cancer)
                    	 9411: Post-traumatic Stress Disorder

                    VBA initially reported they would ensure each temporary 100 percent
                    disability evaluation had a future exam date entered in the veterans’
                    electronic record by September 30, 2011. VBA extended the target
                    completion date to December 31, 2011. They further extended the
                    completion date to June 30, 2012, and finally to September 21, 2012.

                    VBA established a biweekly TRAP report in August 2012 to audit all claims
                    that field personnel failed to set up a routine future exam, make a
                    determination of permanent and total disability, or establish due process for a
                    reduction when justification for the temporary 100 percent disability
                    evaluation no longer exists. When none of these controls are in place, the
                    evaluation is flagged and regional offices are notified to review the
                    temporary 100 percent disability evaluation for possible corrective action.



VA Office of Inspector General                                                                     9
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix B          Scope and Methodology

Scope               We conducted our audit work from January through March 2014. The audit
                    focused on 8,349 temporary 100 percent disability evaluations identified by
                    VBA, as of January 8, 2014. We analyzed regional office documented
                    actions, including notification letters to veterans, development for medical
                    evidence, scheduling of exams, and proposals of reductions.

Methodology         On October 3, 2013, VBA provided the OIG with 13 biweekly TRAP reports
                    (dated April 1 through September 16, 2013) and requested closure of the
                    recommendation. We reviewed both the completeness of the TRAP report
                    and the effectiveness of VBA’s management of these temporary 100 percent
                    disability evaluations.

                    To assess the completeness of the TRAP report, we reviewed the business
                    rules VBA provided showing how they identified veterans on the report. We
                    reviewed a non-statistical sample of veterans listed on the TRAP reports and
                    identified veterans who should not have been listed because regional office
                    staff had already initiated work actions or end products to reduce their
                    temporary 100 percent evaluation. We then recreated a list using VBA’s
                    business rules and identified veterans with temporary 100 percent disability
                    evaluations not listed on the TRAP report.

                    To assess the effectiveness of VBA’s management of these temporary
                    evaluations, we reviewed a statistical sample of veterans identified by VBA.
                    We reviewed available electronic records to determine what, if any, actions
                    VBA had taken to control each veteran’s temporary evaluation. Once we
                    identified a temporary evaluation had no action taken, we determined the
                    amount of benefits currently paid. We used this amount to estimate the sum
                    of unsupported temporary evaluation payments from the time the Office of
                    Field Operations first notified the regional office.

Data                To assess the reliability of data, we compared data elements, such as veteran
Reliability         identifier information and claim date between VBA electronic systems and
                    with the sample data. We concluded that the data used to accomplish the
                    review objectives was sufficiently reliable.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objective. We conducted our original audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the review to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and conclusion based
                    on our review objective.

                    We conducted this follow-up audit in accordance with generally accepted
                    government auditing standards, except for the following. We assessed Audit
                    Risk; Applicable Criteria; Detection of Fraud, Violations, and Abuse; and


VA Office of Inspector General                                                                    10
                                         Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    Using the Work of Others during our 2011 audit. We did not identify any
                    indications of audit risk, fraud, abuse, or any other concerns which would
                    lead us to believe violations had occurred. Therefore, we did not reassess
                    these areas during our follow-up, which focused only on those actions VBA
                    took to comply with our prior audit recommendations. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective.




VA Office of Inspector General                                                                   11
                                          Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix C          Statistical Sampling Methodology

Population          The population consisted of 8,349 unique veterans that VBA identified for
                    regional office review as of January 8, 2014.

Sampling            To answer our audit objective, we selected a stratified random sample. We
Design              segregated the population into two groups by time frame—those less than
                    1 year old (3,510) and those 1 year or more (4,839). We selected a statistical
                    random sample within groups. All records had a chance of selection, which
                    allowed us to make a projection over the entire population. In order to
                    facilitate the stratification selection of records, we used the survey select
                    procedure in the Statistical Analysis Software. We generated random
                    numbers for the selection of records within each strata.

Weights             We calculated estimates in this report using weighted sample data and
                    computed sampling weights by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling.

Projections         We used a 90 percent confidence interval and sample size based on time
and Margins of      frame. The margins of error and confidence intervals are indicators of the
Error
                    precision of the estimates. If we repeated this audit with multiple samples,
                    the confidence intervals would differ for each sample, but would include the
                    true population value 90 percent of the time.

                    Table 1 provides a breakout of temporary 100 percent disability evaluations
                    where VBA knows the temporary 100 percent disability does not have a
                    future exam date and where VBA notified the regional office to take
                    appropriate action. We obtained this data from VBA’s VETSNET
                    Operations Pending Full Detail Report. Table 1 further breaks out the
                    temporary 100 percent disability evaluations into those the Office of Field
                    Operations notified the regional office less than 1 year and 1 year or more.




VA Office of Inspector General                                                                    12
                                            Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                     Table 1. Office of Field Operations Notifications by Office and Time 

                                         Frame as of January 8, 2014

                                  Time Frame                                   Time Frame
                                 Less     One                                 Less     One
                  Regional                                  Regional
                                 Than    Year                                 Than    Year
                   Office                          Total     Office                            Total
                                 One       or                                 One       or
                  Number                                    Number
                                 Year    More                                 Year    More
                     301           54      436       490       339               95      14      109
                     304           28       10        38       340               19      13       32
                     306           46      194       240       341               18        9      27
                     307           50      198       248       343              134      51      185
                     308           60       47       107       344              244      79      323
                     309           53      423       476       345               76      27      103
                     310           80       58       138       346              193     111      304
                     311           94      288       382       347                9        0       9
                     313          119      241       360       348               33        1      34
                     314           49         2       51       349               66        2      68
                     315            9       19        28       350               30        1      31
                     316          181      283       464       351               30        0      30
                     317          322      272       594       354               36        5      41
                     318          170      256       426       355                9        1      10
                     319           68      127       195       358                2        0       2
                     320           99       15       114       362              143      11      154
                     321           53       17        70       372                5      60       65
                     322           56      102       158       373               18      23       41
                     323           37       76       113       377               38        1      39
                     325          125      715       840       402                9        5      14
                     326           46       63       109       405               22        1      23
                     327           87      204       291       436                6        0       6
                     328           86       10        96       437                6        0       6
                     329          105      343       448       438                5        0       5
                     330           21         0       21       442               12        2      14
                     331           70         8       78       452               14        0      14
                     333           15         0       15       459                2        0       2
                     334           11         0       11       460                7        2       9
                     335           11         0       11       463               24      13       37
                                                              Total           3,510   4,839    8,349
                  Source: VBA VETSNET Operations Pending Full Detail Report




VA Office of Inspector General                                                                         13
                                           Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    Table 2 provides universe and sample information, number of sample cases
                    identified where there was no documented record of VBA taking action, and
                    a summary of the potential unsupported payments for those veterans.

                          Table 2. Summary of Pending Temporary 100 Percent Disability 

                             Evaluations Identified for Review With no Action Taken


                                                                                       90 Percent
                                                    No                  Margin        Confidence
                                         Sample
              Description    Universe              Action   Estimate      of            Interval
                                          Size
                                                   Taken                Error       Lower     Upper
                                                                                    Limit     Limit
                                                  Less Than 1 Year
              Number of          3,510     53        49       3,245       213       3,032       3,458
              Records

              Percent                                        92.5%        6.1%      86.4%       98.5%

              Value (in                                       $47.8      $11.0      $36.8       $58.9
              millions)
                                                  1 Year or More
              Number of          4,839     53        45       4,109       399       3,710       4,507
              Records

              Percent                                        84.9%        8.2%      76.7%       93.1%

              Value (in                                      $152.6      $19.8      $132.8     $172.4
              millions)
                                                     Combined
              Number of          8,349    106        94       7,354       452       6,901       7,806
              Records

              Percent                                        88.1%        5.4%      82.7%       93.5%

              Value (in                                      $200.5      $22.7      $177.8     $223.1
              millions)
              Source: VA OIG analysis

Prior Audit         During our 2011 audit, we reviewed the records of a projected
Results             37,000 veterans with a temporary 100 percent disability evaluation and
                    identified an estimated 9,919 that did not have a future exam date entered in
                    their electronic record. To determine if the veteran was still entitled to the
                    temporary 100 percent disability evaluation, we reviewed VBA’s electronic
                    compensation records and all medical evidence found in each veteran’s
                    claims folder.




VA Office of Inspector General                                                                     14
                                            Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    When we could not determine whether the veteran was still entitled to the
                    temporary 100 percent disability evaluation, we referred the case to the
                    regional office of jurisdiction for review. The regional office conducted a
                    review to determine if a medical exam was necessary and if so, they
                    requested the nearest VA medical center to schedule an exam. Once the
                    physician completed the exam, the physician documented their diagnosis of
                    the veteran’s current condition to include any level of improvement. After
                    completing this process, regional office staff determined that the medical
                    evidence no longer supported a temporary 100 percent disability evaluation
                    for a projected 4,202 (42 percent) of the 9,919 veterans and reduced their
                    evaluation accordingly. Prior to our audit, these veterans were receiving a
                    monthly average benefit payment of about $2,922. After regional office staff
                    took corrective action, VBA reduced the benefits for these veterans by an
                    average of about $1,985 per month – an accurate entitlement payment. Table
                    3 provides the confidence level for the error rate.

                        Table 3. 2011 Audit of 100 Percent Disability Evaluations Results
                        for Temporary Evaluations Without a Future Medical Exam Date
                                                    Entered

                                                                                90 Percent
                                                             Margin of      Confidence Interval
                                                Estimate
                                                              Error          Lower         Upper
                                                                             Limit         Limit

                       Number of
                       Evaluations not
                                                  42%            7%           36%           49%
                       Supported by
                       Medical Evidence
                      Source: VA OIG Analysis

                    Since our 2011 report, VBA took actions to reduce the numbers of veterans
                    who currently have temporary 100 percent disability evaluations without a
                    future exam date from a projected 9,919 to 7,354 in January 2014. However,
                    as we reported in 2011, the primary control to ensure only entitled veterans
                    receive the temporary 100 percent disability evaluation is the existence of a
                    future exam date in the veterans’ electronic records. For this reason, we
                    believe the 2011 audit results showing a 42 percent error rate and average
                    reduction of about $1,985 is still a reasonable basis to determine the current
                    monetary impact from VBA not taking action on recommendation 7.

Calculation of      For those temporary 100 percent disability evaluations where regional office
Potential           staff had not taken action, we identified the amount of benefits paid to the
Monetary
Benefits
                    veteran since the date Office of Field Operations notified the regional office
                    to take action. The earliest date in our sample was January 2012. During our
                    prior audit, we determined that 42 percent of all temporary 100 percent


VA Office of Inspector General                                                                      15
                                              Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                    disability evaluations without a future medical exam date entered in VA
                    electronic records resulted in the veteran receiving benefits without adequate
                    medical evidence. After regional office staff took corrective action, VBA
                    reduced the veterans’ benefits by an average of about $1,985 per month.
                    Based on the prior audit’s 42 percent rate and subsequent average reduction
                    of about $1,985, we estimate that 3,115 of the 7,354 veterans received almost
                    $85 million in benefit payments since January 2012 without adequate
                    medical evidence.

                    Without corrective action, VBA could overpay these veterans a projected
                    $371 million over the next 5 years. We multiplied the monthly overpayment
                    amount of about $1,985 by 5 years to project the potential overpayment
                    amounts made to these 3,115 veterans. To avoid duplicating any monetary
                    benefits we identified in our 2011 report, we reduced the estimate of
                    potential monetary benefits by eliminating amounts claimed from the prior
                    audit.    That includes all potential overpayments occurring before
                    December 31, 2015. Table 4 explains the methodology we used to identify
                    potential monetary benefits for this follow-up audit.

                         Table 4. Summary of Payments to Non-Action Cases

                                                                                Future Overpayment in
                                                                                     Next 5 Years
                                                                Past           Amount
                                                                                               Amount
                                                              Overpay-        Claimed on
             Description                                                                      Claimed on
                                                               ment            Original
                                                                                              This Audit
                                                                                Audit
    Benefits Paid To 7,354
                                          $200.47 M
    Veterans (millions).
    Estimated Number Of
                                       7,354 × 42.36%
    Veterans Whose Evaluation
                                            3,115
    Should Be Reduced
    Projected Value Of Benefits
    Paid To Veterans Where               $200.47 M ×
                                                               $84.9 M           $84.9 M          $0
    VBA Took No Action                 42.36% $84.9 M
    (millions)
    Average Monthly
    Overpayment (Original                    $1,985
    Audit).
    Estimated Value Of Benefits
                                       $1,985 × 60 mo.
    That Will Be Paid 3,115
                                              ×                 $371 M          $148.4 M       $222.6 M
    Veterans In 5 Years If VBA
                                        3,115 $371 M
    Takes No Action (millions)
    Source: VA OIG analysis
    * Numbers shown in Table 4 may not match numbers throughout the report due to rounding.



VA Office of Inspector General                                                                         16
                                            Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix D          Potential Monetary Benefits in Accordance With
                    Inspector General Act Amendments



                                                                      Better Use       Questioned
    Recommendation               Explanation of Benefits
                                                                       of Funds          Costs


                            In total, we identified a
                            $456 million impact to the
                            government ($85 million in past
                            payments and $371 million over
                            the next 5 years). We estimate
                            that 3,115 (42 percent) of the
                            7,354 veterans received almost
                            $85 million in improper benefit
                            payments      without    adequate
                            medical evidence.         Without
                            action, VBA could overpay these
                            veterans a projected $371 million
              1                                                        $222,600,000           $0          

                            over the next 5 years. To account
                            for the overlap from the prior
                            audit, we did not claim $233.4
                            million ($85 million in estimated
                            benefit     payments      without
                            adequate medical evidence and
                            $148.4 million of the projected
                            future monetary benefits). We
                            had already claimed all benefits
                            before December 31, 2015, on the
                            prior audit. See Table 4 for
                            additional details.

                                                        Total:          $222,600,000          $0




VA Office of Inspector General                                                                      17
                                                Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix E           Under Secretary for Benefits Comments



                Department of                                 Memorandum
                Veterans Affairs

           Date:	   May 13, 2014

           From:	   Under Secretary for Benefits (20)

           Subj:	   OIG Draft Report—Follow-up Audit of 100 Percent Disability Evaluations [Project
                    Number 2014-01686-R5-0089]—VAIQ 7458279

             To:    Assistant Inspector General for Audits and Evaluations (52)

                    1. Attached is VBA’s response to the OIG’s Draft Report: Follow-up Audit of
                    100 Percent Disability Evaluations.

                    2. 
 Questions may be referred to Christopher Denno, Program Analyst, at
                    461-9125.





                    Attachment




VA Office of Inspector General                                                                          18
                                              Follow-up Audit of VBA’s 100 Percent Disability Evaluations


                                                                                              Attachment

                              Veterans Benefits Administration (VBA)

                                  Comments on OIG Draft Report

                        Follow-up Audit of 100 Percent Disability Evaluations 


The Veterans Benefits Administration provides the following comments:

VBA developed a solution for missing future examination dates for Veterans assigned temporary
100-percent evaluations by creating the “TRAP” report. The TRAP report identifies those claims that may
require an adjustment based on a temporary 100-percent evaluation and flags the records without a
future examination date for the regional office of jurisdiction to review. VBA issued guidance on February
6, 2014, with defined timeliness targets for conducting the reviews and completing any actions needed on
the temporary 100-percent evaluations identified through the TRAP report. As of April 26, 2014, the
inventory of these pending reviews had decreased by 57 percent, with the number pending over 180
days reduced by 65 percent and the number pending over one year reduced by 73 percent. Based on
the actions and improvement outlined above, VBA believes that it has met the requirement to both
identify and put a plan in place to take action on Veterans’ records requiring a future examination and
potential adjustment.

The OIG cites the location of claims folders at the Records Management Center (RMC) as a factor that
prevents VA from identifying claims where a Veteran’s medical condition may have improved. However,
this is a misunderstanding of VBA’s current claims processing business model. The new Transformation
business model utilizes a paperless claims processing environment. The RMC does not need to
physically send the paper claims folder to the regional office having jurisdiction of the Veteran’s claim.
Paper claims files located at the RMC that are needed in connection with a temporary 100-percent
evaluation review are sent to VBA’s scanning vendor, where they are uploaded for electronic access by
the regional office.

Based on its review of 106 Veterans’ records, OIG determined that 16 of these records were located at
the RMC. OIG then used this sample to estimate that 1,500 claims requiring future exams were located
at the RMC. However, that estimate is inaccurate, as only 182 claims files requiring future exam reviews
were actually located at the RMC as of January 31, 2014. VBA has issued guidance to expedite
shipment of these files to the scanning vendor.

VBA also disagrees with the OIG’s estimate that 3,100 (42 percent) of the Veterans listed on the TRAP
report are receiving improper payments, and therefore believes the OIG’s projection of improper
payments to be significantly overstated. The OIG states in Appendix C that it based the 42-percent
estimate on the small sample of cases without future examination dates reviewed by regional office staff
during the OIG’s 2011 site visits. To assess the applicability of this estimate to the 7,400 cases on the
current TRAP report without a future examination date, VBA looked at the universe of 81,092 Veterans
who were in the population of Veterans with 100-percent disability evaluations that were the subject of
the OIG’s 2011 review, and applied the TRAP criteria to their 2010 status. VBA identified 4,082 claims
that met the TRAP criteria in 2010 for no future diary at that time and therefore at risk for improper
payments. VBA then reviewed their current status and determined that only 16 percent of these
Veterans’ awards have been reduced, terminated, or suspended. The remaining Veterans have either
had their 100-percent disability evaluation converted to permanent status or have since died; or they
have had their temporary evaluations continued, with the required controls in place to review the claims in
the future and schedule examinations as needed.




VA Office of Inspector General                                                                          19
                                             Follow-up Audit of VBA’s 100 Percent Disability Evaluations


The following comments are submitted in response to the recommendations in the OIG draft
report:

Recommendation 1: We recommend the Under Secretary for Benefits ensure regional office staff take
the appropriate action to review and process the records of all veterans with a temporary 100 percent
disability evaluation within 180 days of the veteran’s inclusion on the TRAP report or the veteran’s
scheduled exam.

    VBA Response: Concur. VBA has implemented an aggressive plan to ensure appropriate action is
    taken on all temporary 100-percent disability evaluations within 180 days of inclusion on the TRAP
    report or maturation of VBA’s future examination indicator that is established when the Veteran is
    awarded a temporary 100-percent evaluation. Since February 6, 2014, when guidance regarding
    this plan was issued to VBA regional offices, the inventory of pending reviews decreased by
    57 percent, and the number of these reviews pending more than 180 days decreased by 65 percent
    (data as of April 26, 2014).

    Target Completion Date: September 30, 2014.

Recommendation 2: We recommend the Under Secretary for Benefits ensure regional offices transfer
from the Records Management Center all claims folders with temporary 100 percent disability evaluations
to the regional office of jurisdiction.

    VBA Response: Concur. However, the transfer will be accomplished in VBA’s electronic
    environment using the Veterans Benefits Management System (VBMS). The Records Management
    Center (RMC) does not need to physically send the paper claims folder to the regional office of
    jurisdiction. Paper claims files located at the RMC that are needed in connection with a temporary
    100-percent review are being sent to VBA’s scanning vendor, where they are uploaded for electronic
    access by the regional office. As the future examination indicator matures, the electronic folder will
    be available in VBMS for the regional office to take appropriate follow-up action. As of
    January 31, 2014, only 182 claims files requiring future exam reviews were actually located at the
    RMC (significantly below the 1,500 estimated by OIG). VBA has issued guidance to expedite
    shipment of these files to the scanning vendor.

    Target Completion Date: July 31, 2014




VA Office of Inspector General                                                                         20
                                         Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	             For more information about this report, please
                                                contact the Office of Inspector General at
                                                (202) 461-4720.

                      Acknowledgments	          Larry Reinkemeyer, Director
                                                Timothy Halpin
                                                Ken Myers
                                                Sandra Parsons
                                                Nelvy Viguera Butler




VA Office of Inspector General                                                                   21
                                         Follow-up Audit of VBA’s 100 Percent Disability Evaluations


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                   22
